No. 21-

 

 

IN THE
Supreme Court of the Anited States

LEVI FRASIER,

Petitioner,
v.

CHRISTOPHER EVANS ET AL.,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

8,075 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 8, 2021.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
